TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2008 Statutory Review of
                    Compliance With Legal Guidelines When
                                Issuing Levies



                                           April 15, 2008

                              Reference Number: 2008-30-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 April 15, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2008 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 200830003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
 Opportunity for Hearing Before Levy.1 This audit is statutorily required in each fiscal year.

 Impact on the Taxpayer
 The IRS Restructuring and Reform Act of 19982 requires the IRS to notify taxpayers at least
 30 calendar days before initiating any levy action to give taxpayers an opportunity to formally
 appeal the proposed levy. We determined the IRS is complying with the legal guidelines and
 protecting taxpayer rights.

 Synopsis
 This is the tenth annual report the Treasury Inspector General for Tax Administration has issued
 in compliance with the IRS Restructuring and Reform Act of 1998 requirement to determine
 whether the IRS is complying with legal guidelines over the issuance of levies. Our prior reports

 1
   26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
 2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                     Fiscal Year 2008 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



have recognized that the IRS has implemented tighter controls related to systemically generated
levies. This was due primarily to the development of systemic controls in both the Automated
Collection System3 and the Integrated Collection System4 to prevent levies from being generated
unless there were at least 30 calendar days between the date taxpayers received notice of their
appeal rights and the date of the proposed levies. Our reviews for the past 5 years disclosed no
weaknesses in the Automated Collection System and the Integrated Collection System systemic
levy processes. Based on these results, we considered the systemic controls strong and
concentrated this year’s audit efforts on manual levies only. We did not test systemic levies.
Since Fiscal Year 2005, we have reported that revenue officers in field offices and Automated
Collection System function customer service representatives properly notified taxpayers of their
appeal rights when issuing manual levies.5 Our review this year of 30 Integrated Collection
System and 30 Automated Collection System manual levies issued between July 1, 2006, and
June 30, 2007, showed revenue officers and customer service representatives continued to
properly inform taxpayers of their rights at least 30 calendar days prior to issuing the levies.
During last fiscal year’s audit, we reported that the IRS did not always contact taxpayers or send
reminder notices about potential enforcement actions when more than 180 calendar days had
passed since the date of the notification letters. The IRS implemented program changes in the
Automated Collection System to correctly address this issue. We tested the effectiveness of
these changes and determined that the IRS appropriately sent reminders or had contacted
taxpayers within 180 calendar days of levy for all cases in our sample.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by this report. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-8510.




3
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
4
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
5
  Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072, dated June 2005);
Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines When Issuing Levies (Reference
Number 2006-30-101, dated August 4, 2006); and Fiscal Year 2007 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Reference Number 2007-30-070, dated April 20, 2007).
                                                                                                                    2
                         Fiscal Year 2008 Statutory Review of Compliance With Legal
                                       Guidelines When Issuing Levies




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Employees Properly Notified Taxpayers of Their Appeal Rights
          Prior to Issuing Manual Levies .....................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Example of Levy (Form 668-B) ..........................................Page 10
         Fiscal Year 2008 Statutory Review of Compliance With Legal
                       Guidelines When Issuing Levies




                       Abbreviations

ACS              Automated Collection System
ICS              Integrated Collection System
IRS              Internal Revenue Service
U.S.C.           United States Code
                     Fiscal Year 2008 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies




                                             Background

When taxpayers do not pay delinquent taxes, the Internal
Revenue Service (IRS) has the authority to work directly                 The Treasury Inspector General for
                                                                          Tax Administration is required to
with financial institutions and other third parties to seize              annually verify whether the IRS is
taxpayers’ assets. This action is commonly referred to                         complying with the IRS
as a “levy” (see Appendix IV for an example of a Levy                      Restructuring and Reform Act
(Form 668-B)). The IRS Restructuring and Reform Act                       of 1998 requirement to notify the
of 19981 requires the IRS to notify the taxpayer at least                taxpayer at least 30 calendar days
                                                                            before initiating a levy action.
30 calendar days before initiating a levy action to give
the taxpayer an opportunity to formally appeal the
proposed levy.
The IRS Restructuring and Reform Act of 1998 also requires the Treasury Inspector General for
Tax Administration to annually verify whether the IRS is complying with the provisions. This is
the tenth year in which we have evaluated the controls over levies.
Two operations within the IRS issue levies to collect delinquent taxes:
    •   The Automated Collection System (ACS), through which customer service
        representatives contact delinquent taxpayers by telephone to collect unpaid taxes and
        secure tax returns.
    •   The Collection Field function, where revenue officers contact delinquent taxpayers in
        person as the final step in the collection process. Field contact becomes necessary when
        the ACS function does not resolve the tax matter. Delinquent cases assigned to revenue
        officers in the field offices are controlled and monitored with the automated Integrated
        Collection System (ICS).
Both operations issue two types of levies: systemically generated levies and manual levies.
Virtually all levies issued by customer service representatives are generated through the ACS.
To comply with requirements in the IRS Restructuring and Reform Act of 1998, the ACS
contains a control that prevents a levy from being generated if there are fewer than 30 calendar
days between the date the taxpayer was notified of the pending levy and the date requested for
the actual issuance of the levy. This control is designed to ensure that taxpayers have been
notified at least 30 calendar days prior to issuance of the levies and have been informed of their
appeal rights for any systemically generated levies. In addition, managers approve all levy
actions. Even when an employee manually generates the request for a levy (as opposed to the

1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                    Fiscal Year 2008 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies



system generating the request), the systemic controls of at least 30 calendar days’ notice and
managerial approval are in place.
The ICS includes a control–similar to the control in the ACS–that prevents revenue officers from
issuing levies unless taxpayers have received 30 calendar days’ notice and have been informed of
their appeal rights. If fewer than 30 calendar days have elapsed since the final notice date, the
ICS will not generate a levy.
Previous Treasury Inspector General for Tax Administration audit reports2 have recognized that
the IRS has significantly improved controls over the issuance of systemically generated levies,
primarily due to the development of these systemic controls in both the ACS and ICS. Our
reviews for the past 5 fiscal years disclosed no weaknesses in the ACS and ICS systemic levy
processes. Based on these results, we consider the controls to be strong. Therefore, we
concentrated this year’s audit efforts on manual levies only and did not test systemic levies.
There is a higher risk when revenue officers issue manual levies because they request these
levies outside of the systemic controls that exist and there is no managerial approval required.
Treasury Inspector General for Tax Administration audit reports issued prior to Fiscal Year 2005
reported that additional controls were needed over manual levies issued by revenue officers.3
The IRS issued an ICS Alert on March 5, 2004, reminding employees to ensure that taxpayer
rights are protected whenever a manual levy is issued. Since our Fiscal Year 2005 report,4 we
have reported that revenue officers properly notified taxpayers of their right to a hearing when
issuing manual levies. However, we consider the risk higher and continued to test the manual
levies.
Because the ICS is not generating the levies, we cannot be assured that there is a complete
automated trail for manual levies. Therefore, it is impossible to reliably determine the exact
number of manual levies issued by revenue officers during our review period. However, we
estimate that customer service representatives manually generated about 22 percent of all levies
issued through the ACS during our audit period. We estimate that revenue officer requests for
manual levies totaled less than 1 percent of all levies requested by revenue officers.

2
  The Internal Revenue Service Does Not Have Controls Over Manual Levies to Protect the Rights of Taxpayers
(Reference Number 2003-40-129, dated June 2003); The Internal Revenue Service Has Improved Controls Over the
Issuance of Levies, But More Should Be Done (Reference Number 2002-40-176, dated September 2002); The
Internal Revenue Service Complied With Levy Requirements (Reference Number 2001-10-113, dated July 2001);
and The Internal Revenue Service Has Significantly Improved Its Compliance With Levy Requirements (Reference
Number 2000-10-150, dated September 2000).
3
  Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
4
  Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072, dated June 2005);
Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines When Issuing Levies (Reference
Number 2006-30-101, dated August 4, 2006); and Fiscal Year 2007 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Reference Number 2007-30-070, dated April 20, 2007).
                                                                                                     Page 2
                  Fiscal Year 2008 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies



This review was performed at the Small Business/Self-Employed Division National
Headquarters in the Collection office in New Carrollton, Maryland, during the period
August 2007 through January 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                     Fiscal Year 2008 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies




                                      Results of Review

Employees Properly Notified Taxpayers of Their Appeal Rights Prior
to Issuing Manual Levies
Although the ACS function primarily issues levies systemically, customer service representatives
may also request manual levies under certain circumstances, such as levies on Individual
Retirement Arrangements and in jeopardy situations.5 Manual levies require the same advance
notification to the taxpayer as systemic levies, except in cases involving jeopardy situations. IRS
procedures require that manual levies issued by customer service representatives be reviewed
and approved by a manager prior to the levies being issued. We consider this managerial review
to be an effective control.
We analyzed the case histories for ACS function cases to identify any manual levies issued
between July 1, 2006, and June 30, 2007. Because there is no automated audit trail produced for
manual levies, we used employee and action codes6 as the basis to identify any potential manual
levies issued by ACS function employees. Our review of 30 manual levies issued by customer
service representatives showed the IRS adequately protected taxpayers’ appeal rights.
Revenue officers issue levies systemically through the
ICS in most cases. They are also authorized to issue a
                                                                       Our review of 30 ACS function
manual levy on any case as needed. While managerial
                                                                          and 30 ICS manual levies
approval is mandatory for manual levies issued by the                   determined the IRS protected
ACS function, no review or approval is required when                  taxpayers’ appeal rights in these
revenue officers issue manual levies. We believe there                             cases.
is a high risk associated with manual levies because no
review is required.
We analyzed the ICS case inventory assigned to revenue officers to identify any manual levies
issued between July 1, 2006, and June 30, 2007. Because no automated audit trail is produced
for manual levies, we analyzed case history comments for any reference to a manual levy. Using
this methodology, we identified cases in which a manual levy was issued to seize taxpayers’
assets and reviewed a sample of 30 cases. In all 30 cases, taxpayers received proper notification
of their rights.


5
  A jeopardy situation occurs when the IRS is concerned that the taxpayer may attempt to hide or dispose of assets to
prevent enforced collection actions.
6
  The action code shows what action was taken, such as levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 4
                   Fiscal Year 2008 Statutory Review of Compliance With Legal
                                 Guidelines When Issuing Levies



The ACS is sending reminder notices to taxpayers when 180 calendar days have
passed since issuance of the notification letters
IRS guidelines state that, if a notice of intent to levy is more than 180 calendar days old, it is
legally sufficient to support consequent collection action by levy. However, the IRS has
administratively determined that the taxpayer will get a new warning of enforcement action
before a notice of levy is issued. This warning can be given orally through contact with the
taxpayer or in writing through issuance of an ACS letter. During last fiscal year’s audit, we
reported that this was not always being done in the ACS function. The IRS implemented
programming changes to correct this. During this audit, we followed up to determine if those
programming changes were effective.
We evaluated the effectiveness of program changes to the ACS for sending reminder notices to
taxpayers about potential enforcement actions when more than 180 calendar days had passed
since the date of the notification letters and there had been no taxpayer contact. Our review of
30 manual levies issued more than 180 calendar days after the original notices of intent to levy
had been sent showed the ACS function sent appropriate reminder letters if there had been no
other contacts with taxpayers within 180 calendar days of the date of the notices.




                                                                                               Page 5
                      Fiscal Year 2008 Statutory Review of Compliance With Legal
                                    Guidelines When Issuing Levies



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with
26 United States Code (U.S.C.) Section (§) 6330, Notice and Opportunity for Hearing Before
Levy.1 To accomplish our objective, we:
I.       Determined whether manual levies issued by both revenue officers and ACS2 function
         customer service representatives complied with legal guidelines in 26 U.S.C. § 6330.
         A. Identified any references to manual levies issued between July 1, 2006, and
            June 30, 2007, by querying the history narrative text field of the ICS3 open case
            inventories. We identified and reviewed a judgmental sample of 30 manual levies
            from the open ICS cases. We used judgmental sampling because we could not
            identify the population of manual levies issued.
         B. By using the employee and action codes4 on the ACS, identified
            433,523 employee-requested levies on the ACS between July 1, 2006, and
            June 30, 2007, and randomly selected a sample of 30 manual levies.
         C. Requested case history files for all cases containing references to manual levies
            identified in Steps I.A. and I.B.
         D. Reviewed case history documentation and identified whether a revenue officer or an
            ACS function customer service representative had issued a manual levy.
         E. Analyzed Master File5 transcripts and ACS and ICS history files to determine whether
            taxpayers were provided at least 30 calendar days’ notice prior to any levy actions
            initiated by the IRS.



1
  26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
4
  The action code shows what action was taken, such as levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                             Page 6
                     Fiscal Year 2008 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



        F. Validated data from the ACS and ICS by relying on Treasury Inspector General for
           Tax Administration Data Center Warehouse6 site procedures that ensure that data
           received from the IRS are valid. The Data Center Warehouse performs various
           procedures to ensure that it receives all the records in the ACS, ICS, and IRS
           databases. In addition, we scanned the data for reasonableness and are satisfied that
           the data are sufficient, complete, and relevant to the review. All the levies identified
           are in the appropriate period, and the data appear to be logical. This data validation
           also applied to Step II.
II.     Determined the effectiveness of program changes on the ACS for sending reminder
        notices to taxpayers about potential enforcement actions when more than 180 calendar
        days have passed since the date of the notification letters and there has been no taxpayer
        contact.
        A. Identified one levy per taxpayer issued more than 180 calendar days from the date of
           the notification letter between June 1, 2007, and June 30, 2007, by querying the
           Treasury Inspector General for Tax Administration Data Center Warehouse ACS
           database using the codes for levies and letters. We selected 1 month of levies due to
           the large volume of data. We identified a population of 20,037 levies and randomly
           selected 30 levies.
        B. Reviewed Master File, ACS, and Desktop Integration7 histories and action codes to
           determine whether reminder notices had been sent or contacts with taxpayers had
           been made within 180 calendar days of the levy.




6
 A centralized storage and administration of files that provides data and data access services of IRS data.
7
 The IRS system that provides multiple system interfaces using only one computer terminal. Users can access
various IRS data systems through one computer.
                                                                                                         Page 7
                 Fiscal Year 2008 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Pillai Sittampalam, Lead Auditor
Christina Dreyer, Senior Auditor




                                                                                       Page 8
                Fiscal Year 2008 Statutory Review of Compliance With Legal
                              Guidelines When Issuing Levies



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
Fiscal Year 2008 Statutory Review of Compliance With Legal
              Guidelines When Issuing Levies



                                               Appendix IV

  Example of Levy (Form 668-B)




                                                      Page 10
